      Department of Homeland Security





            Transportation Security Administration’s

      Screening of Passengers by Observation Techniques 

                         (REDACTED) 





OIG-13-91                                          May 2013

                         OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security
                                Washington, DC 20528 / www.oig.dhs.gov


                                       MAY 29 2013


MEMORANDUM FOR: 	            John P. Sanders
                             Assistant Administrator
                             Office of Security Capabilities
                             Transportation Security Administration

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT: 	                   Transportation Security Administration’s Screening of
                             Passengers by Observation Techniques

Attached for your action is our final report, Transportation Security Administration’s
Screening of Passengers by Observation Techniques. We incorporated the formal comments
from the Transportation Security Administration in the final report.

The report contains six recommendations aimed at improving the Screening of Passengers
by Observation Techniques program. Your office concurred with all recommendations.
Based on information provided in your response to the draft report, we consider the
recommendations resolved and open. Once your office has fully implemented the
recommendations, please submit a formal closeout letter to us within 30 days so that we
may close the recommendations. The memorandum should be accompanied by evidence
of completion of agreed-upon corrective actions and of the disposition of any monetary
amounts.

Consistent with our responsibility under the Inspector General Act, we are providing copies
of our report to appropriate congressional committees with oversight and appropriation
responsibility over the Department of Homeland Security. We will post a redacted version
of the report on our website.

Please call me with any questions, or your staff may contact John E. McCoy II, Deputy
Assistant Inspector General for Audits, at (202) 254-4100.

Attachment
                                          OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary ............................................................................................................ 1 


   Background ........................................................................................................................ 2 


   Results of Audit .................................................................................................................. 4 


              Performance Management .................................................................................... 6 

              Training .................................................................................................................. 8 

              Outreach and Engagement .................................................................................... 9 

              Financial Accountability ....................................................................................... 10 

              BDO Selection, Allocation, and Performance ...................................................... 11 

              Recommendations ............................................................................................... 12 

              Management Comments and OIG Analysis ......................................................... 13


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology ........................................... 16

              Appendix B:           Management Comments to the Draft Report .............................. 19

              Appendix C:           SPOT Referral Process ................................................................... 29 

              Appendix D:           SPOT Situation Report (SitRep) Dashboard – All Airports ............ 30 

              Appendix E:           GAO Status of SPOT Recommendations ....................................... 31

              Appendix F:           Training Tasks Analysis for SPOT Program – Executive Summary 34

              Appendix G:           Major Contributors to This Report ............................................... 36 

              Appendix H:           Report Distribution ....................................................................... 37 


   Abbreviations
              BDO                   Behavior Detection Officer
              DHS                   Department of Homeland Security
              FY                    fiscal year
              GAO                   Government Accountability Office
              LEO                   law enforcement officer
              OIG                   Office of Inspector General
              OMB                   Office of Management and Budget
              PMIS                  Performance Measurement Information System
              S&T                   Science and Technology (Directorate)
              SPOT                  Screening of Passengers by Observation Techniques
              TSA                   Transportation Security Administration
              TSO                   Transportation Security Officer


www.oig.dhs.gov                                                                                                                  OIG-13-91
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   We audited the Transportation Security Administration’s (TSA) Screening of Passengers
   by Observation Techniques program. The program’s intent is to screen passengers by
   observing their behavior in order to detect potential high-risk travelers. This program
   uses Behavior Detection Officers to detect passenger behaviors that may be indicative
   of stress, fear, or deception. Congressman Bennie Thompson requested an audit of
   TSA’s Screening of Passengers by Observation Techniques program to determine its
   effectiveness, efficiency, and economy as a security screening protocol at airports. The
   audit objective was to determine whether TSA’s Screening of Passengers by Observation
   Techniques program is structured to ensure that passengers at U.S. airports are
   screened in an objective and cost-effective manner to identify potential terrorists.

   Since the Screening of Passengers by Observation Techniques program began in fiscal
   year 2007, data provided by TSA indicate that the program has expended an estimated
   $878 million and has more than 2,800 full-time equivalent positions, as of September
   30, 2012. However, TSA has not implemented a strategic plan to ensure the program’s
   success. For example, TSA did not (1) assess the effectiveness of the Screening of
   Passengers by Observation Techniques program, (2) have a comprehensive training
   program, (3) ensure outreach to its partners, or (4) have a financial plan. As a result,
   TSA cannot ensure that passengers at United States airports are screened objectively,
   show that the program is cost-effective, or reasonably justify the program’s expansion.
   In fiscal year 2012, TSA’s Behavior Detection and Analysis Division developed a draft
   strategic plan that includes a statement of mission, goals, and objectives. However, the
   plan had not been approved and implemented at the time of our review.

   We made six recommendations to improve the effectiveness of the Screening of
   Passengers by Observation Techniques program. TSA concurred with all
   recommendations.




www.oig.dhs.gov                               1                                       OIG-13-91
                                OFFICE OF INSPECTOR GENERAL
                                    Department of Homeland Security


   Background
   According to TSA, it conducts passenger and baggage screening for approximately
   1.8 million passengers daily at more than 450 TSA-regulated U.S. airports. TSA officials
   stated that TSA developed and implemented behavior detection as a layer of security
   (see Figure 1) in response to the Implementing the Recommendations of the 911
   Commission Act of 2007. The program emphasizes objective behavior observation and
   analysis techniques to identify potentially high-risk individuals who are engaged in some
   form of deception and fear discovery.1 According to TSA, the Passenger Assessment
   Screening System was based on the behavior assessment concept used by Israeli
   security forces.

       Figure 1. Layers of U.S. Aviation Security




       Source: TSA

   In 2002, Boston's Logan Airport and the Massachusetts State Police/Port Authority
   piloted the Passenger Assessment Screening System. In 2003, TSA developed the
   Screening of Passengers by Observation Techniques (SPOT) program with assistance
   from the Massachusetts State Police. TSA began operational testing at Logan Airport in
   Boston, Massachusetts, and later expanded its testing at two other New England
   airports. According to the U.S. Government Accountability Office (GAO), in fiscal year

   1
    The Screening of Passengers by Observation Techniques Standard Operating Procedure establishes
   procedures and standards for the uniform screening of individuals.


www.oig.dhs.gov                                     2                                            OIG-13-91
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   (FY) 2007, TSA implemented SPOT, and was authorized 644 Behavior Detection Officers
   (BDOs) for deployment to 42 airports. According to TSA, as of FY 2012, more than 3,000
   BDOs were authorized for deployment to 176 U.S. airports. TSA’s Behavior Detection
   and Analysis Division is responsible for developing strategic plans and program guidance
   for the SPOT program.

   BDOs, working in pairs, primarily
   conduct SPOT at airport screening
   checkpoints by having brief verbal
   exchanges with passengers waiting in
   line, while observing passengers’
   behaviors. A BDO identifies passengers
   for additional screening based on an
   evaluation system of identified
   behaviors, which may require a referral
   to law enforcement. A law
   enforcement officer (LEO) may assess
   the situation by interacting or engaging
   the passenger to determine if law          Source: Aram Boghosian, The Boston Globe
   enforcement intervention is necessary
                                              A TSA BDO speaking with an airline traveler. BDOs
   (see Appendix C for more details on the
                                              often converse with passengers to detect clues
   SPOT referral process). Passengers         regarding suspicious or deceptive behavior from
   whose observed behaviors are not           travelers before they go through metal detectors.
   resolved during the referral process may
   not be permitted to board an aircraft.

   TSA BDOs are required to document all relevant information regarding each passenger
   referral in a referral report and the Performance Measurement Information System
   (PMIS). However, the SPOT Standard Operating Procedure prohibits the collection of
   personally identifiable information in the referral report or PMIS. Reports on the results
   of SPOT operations, such as the SPOT Situation Report Dashboard – All Airports (see
   Appendix D for an example of this report) are generated from the data entered into
   PMIS. According to TSA, SPOT referrals made from October 2011 through September
   2012 resulted in 199 arrests (shown in Figure 2). The reasons for arrests included
   outstanding warrants, suspected drugs, and illegal aliens.




www.oig.dhs.gov                                3                                            OIG-13-91
                                        OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Figure 2. SPOT Referrals and Arrests, October 2011 through September 2012



                657,000,000                          37,370                      2,214                 199
        Passenger Throughput FY 2012*          SPOT Referral Records          LEO Referrals           Arrests




                      2
   Source: TSA data
   * Passenger throughput estimated at more than 450 airports, of which 176 use SPOT.

   The SPOT program was concentrated at large TSA regulated airports.3 According to TSA,
   the insufficient coverage at smaller airports left a gap in TSA’s additional layers of
   security.4 In FY 2012, the program was expanded to smaller airports to increase the
   number of passengers potentially screened by BDOs as they enter the air transportation
   system.

   In May 2010, GAO reported deficiencies in the SPOT program and made 11
   recommendations; see Appendix E for further details about these recommendations.5
   In addition, the SPOT program has come under scrutiny from Congress and the media.
   The Honorable Bennie G. Thompson, Ranking Member, Committee on Homeland
   Security, U.S. House of Representatives, requested that the Office of Inspector General
   (OIG) conduct an audit of TS!’s SPOT program to determine its effectiveness, efficiency,
   and economy as a security screening protocol at airports.

   Results of Audit
   Since the SPOT program began in FY 2007, data provided by TSA indicate that the
   program has expended an estimated $878 million and has more than 2,800 full time
   equivalent positions as of September 30, 2012. See Figure 3 for data on SPOT program

   2
     This information is based on TS!’s SPOT Situation Report Dashboard – All Airports, which may be

   incomplete and inaccurate due to errors identified in the PMIS.

   3
     TSA classifies its regulated U.S. airports into one of five categories—X, I, II, III, and IV. Category X airports 

   generally have the largest number of passengers boarding planes and category IV airports have the least.

   4
     Behavior Analysis Capability Risk Based Allocation Methodology Phase I: Draft Report, July 2012. 





   5
    U.S. Government Accountability Office, GAO-10-763, Efforts to Validate TSA's Passenger Screening

   Behavior Detection Program Underway, but Opportunities Exist To Strengthen Validation and Address

   Operational Challenges, May 2010.


www.oig.dhs.gov                                             4                                                   OIG-13-91
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   growth. However, TSA has not implemented a strategic plan to ensure the program’s
   success.

   An agency’s strategic plan is a valuable tool for communicating a common vision to
   managers, employees, partners, Congress, and the public. Above all, it should be used
   to align resources and guide decision making to accomplish priorities and improve
   outcomes. TSA did not (1) assess the effectiveness of the SPOT program, (2) have a
   comprehensive training program, (3) ensure outreach to its partners, or (4) have a
   financial plan. As a result, TSA cannot ensure that passengers at U.S. airports are
   screened objectively, show that the program is cost-effective, or reasonably justify the
   program’s expansion. In FY 2012, TSA’s Behavior Detection and Analysis Division
   developed a draft strategic plan that includes a statement of mission, goals, and
   objectives. However, the plan had not been approved and implemented at the time of
   our review.

             Figure 3. SPOT Program Growth (Estimated expenditures in millions)
                                                                   BDOs               BDOs
                                                                   2,895   BDOs       2,806
                                                          BDOs             2,710
                                                          2,569




                                              BDOs
                                              1,227

                                  BDOs
                                   589


                     FY             2007       2008         2009   2010    2011       2012
               Airports with
                                     42         160          161    162     162       176
               SPOT
               Estimated
                                   $20M        $81M       $173M    $203M   $196M     $205M
               expenditures
               Expenditure data provided by TSA (unaudited)
             Source: OIG analysis of TSA data




www.oig.dhs.gov                                       5                               OIG-13-91
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Performance Management 


           TSA cannot accurately assess the effectiveness or evaluate the progress of the
           SPOT program. The program does not have a finalized strategic plan that
           identifies the mission, goals, and objectives needed to develop a system of
           performance measures. Even though program operations and referral results
           are recorded in the PMIS, the referral data captured are incomplete and
           inaccurate. Unreliable PMIS data cannot be used to measure performance or
           produce an accurate account of SPOT activity. As a result, TSA cannot
           demonstrate that BDOs are screening passengers in a uniform manner to
           identify potentially high-risk individuals. Office of Management and Budget
           (OMB) Circular A-11 emphasizes that an agency’s strategic plan should define its
           missions, goals, and the means by which it will measure its progress. Specifically,
           strategic plans should—

                  Specify the outcomes that the agency wants to accomplish;
                  Ensure that each strategic goal is supported by performance goals or
                  measures; and
                  Ensure that performance goals set priorities and targets, and track
                  progress in achieving the goals.

           Performance Measures

           TSA had not developed performance measures for the SPOT program. The
           program’s Standard Operating Procedure indicates that its purpose is to identify
           high-risk individuals who may pose a threat to transportation security. The
           program collects data from referral reports that provide measurable outputs of
           specific activities. However, these outputs do not provide a measure of program
           effectiveness, because TSA has not established why these outputs support
           desired outcomes. For example, TSA documents the identification of prohibited
           items, undeclared currency, and illegal aliens, but the SPOT program has not
           defined how these outputs support achieving the SPOT program goals. As a
           result, TSA cannot assess the SPOT program’s success without relative outcome-
           oriented performance measures. In August 2012, TSA provided its draft Behavior
           Detection and Analysis Division Performance Metrics Plan. This plan is intended
           to identify current gaps in performance metrics collection, proposed metrics
           solutions, and resource requirements for the next 3 years. The plan had not
           been approved and implemented at the time of our review.




www.oig.dhs.gov                                 6                                      OIG-13-91
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           Data Collection

           Although program operations and outputs from referrals are recorded in the 

           PMIS, the referral data captured are not always complete or accurate. BDO 

           managers are required to review and approve all SPOT referral reports entered 

           into PMIS, but the internal controls over data entry were ineffective. For 

           example, PMIS will automatically bypass manager review of a referral report 

           after 72 hours. There were insufficient data entry quality assurance measures 

           beyond a BDO manager review. Of the 15 airports tested, 1,420 of the 18,152 

           (8 percent) referral reports recorded in FY 2012 bypassed management review. 

           Five of the airports had more than 15 percent of the referral reports bypass 

           management review. Only 1 of the 15 airports tested had 100 percent 

           management review of referral reports recorded in PMIS. 

           BDOs are required to document information regarding each referral, including 

           the reason(s) for a referral, the BDOs involved, and the resolution. However,

           passenger-specific data are prohibited from being recorded. 


           We assessed more than 110,000 referral records in PMIS from April 1, 2009,

           through September 30, 2012. Of those records—


                  7,019 did not identify the primary or secondary BDO; 

                  1,194 did not meet the criteria for a referral;

                  442 were referral records that were deleted; and 

                  143 did not contain a code for the airport where the referral was made.


           Additionally, we identified duplicate records and one record that contained 

           personally identifiable information. 


           Incomplete and inaccurate PMIS SPOT referral data may have been used to 

           present program results to TSA senior leadership and oversight officials to

           illustrate the results of the SPOT program (see Appendix D for FY 2012 PMIS 

           SPOT referral data). For example, 4 months after providing our audit team with 

           PMIS data, the SPOT program office identified and corrected errors in the 

           database before providing similar data to our investigators, who were 

           conducting a separate investigation. We were not informed that the original 

           data we received had been changed. SPOT program officials said they corrected 

           errors in the level of LEO involvement and deleted duplicate records. 





www.oig.dhs.gov                                7                                      OIG-13-91
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Training


           TSA has not developed a training strategy that addresses the goals and
           objectives of the SPOT program. For example, BDO formal training, such as
           refresher training, is not consistently provided. Additionally, there is no
           formalized process to evaluate BDO instructors, who provide the only formal
           classroom training to BDOs, in the Performance Accountability and Standards
           System. 6 According to GAO, a well-designed training program should be linked
           to the agency’s goals and to the organizational, occupational, and individual skills
           and competencies needed for the agency to effectively perform.7 As a result,
           TSA cannot ensure that training contributes to the uniform screening of
           passengers.

           Formal Training

           TSA does not consistently offer formal refresher training to BDOs. Beginning in
           May 2006, all BDOs were required to attend the SPOT Basic Training course for
           BDO certification. TSA’s training task analysis emphasized the importance of
           recurring training when it reported:

                    …observation skills are among the perishable variety. They need to be
                    constantly honed and refocused on some regular basis. Observation is
                    the single most important task in the entire SPOT Program.…but little
                    training is provided to address its importance, and there is virtually no
                    measurement of the skill in the current testing program.8

           TSA did not start providing refresher training for currently certified BDOs until
           May 2011. The 3-day refresher training consists of a review of SPOT Standard
           Operating Procedure requirements and addresses deficiencies in prior basic
           training courses. TSA determined that BDOs were not receiving training on 37 of
           the 63 (approximately 59 percent) required job tasks in the original versions of
           the basic training course (see Appendix F for SPOT program training task analysis
           executive summary).


   6
     The Performance Accountability and Standards System is a pay-for-performance management system
   that promotes and sustains a culture of high performance and accountability. It is designed to ensure that
   employees know what they need to do to accomplish their work successfully and to help TSA accomplish
   its mission through the use of a pay-for-performance system.
   7
     U.S. General Accounting Office, GAO-04-546G, Human Capital: A Guide for Assessing Strategic Training
   and Development Efforts in the Federal Government, March 2004.
   8
     Transportation Security Administration, Training Task Analysis for the Screening of Passengers by
   Observation Techniques Program, December 16, 2011.


www.oig.dhs.gov                                        8                                             OIG-13-91
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           BDOs with a year or more of experience are eligible to complete TSA’s refresher
           training. According to TSA, 713 of the approximately 2,200 eligible BDOs
           (approximately 32 percent) have received refresher training in the past 2 years.
           Of the 101 BDOs interviewed, 88 were eligible to receive the refresher training.
           Of the 88 eligible BDOs, 65 (approximately 74 percent) have not received the
           training. The SPOT program office reported that because of training staffing
           constraints, they needed to prioritize the training of new BDOs before
           conducting refresher training. As a result, BDOs who have not received the
           refresher training may be operating at varying levels of proficiency.

           Instructors

           BDO instructors provide the only formal classroom training to BDOs. During July
           2012, TSA provided training to BDO instructors and tested them on their teaching
           abilities. TSA identified six BDO instructors who did not have the instructor
           knowledge, skills, or abilities to instruct BDO classes. TSA provided remedial
           instruction to those instructors in order for them to become qualified to teach.
           However, TSA does not evaluate BDO instructors on their instructional abilities in
           their Performance Accountability and Standards System. Additionally, TSA does
           not have a program to provide recurrent training to BDO instructors. Therefore,
           the program office cannot ensure that BDOs are effectively and consistently
           trained.

           Outreach and Engagement

           The relationship between BDOs and local LEOs needs to be improved. TSA
           incorporated law enforcement response as an integral part of the SPOT program.
           However, the SPOT program office has not ensured that airports effectively
           engage local law enforcement. BDOs and local LEOs at the airports contacted
           said that there was insufficient understanding of the roles and responsibilities
           that each had relative to the SPOT program. For example, LEOs at seven airports
           contacted said that they had not received clear information about BDO duties
           and why referrals from BDOs warranted law enforcement response. Conversely,
           BDOs expressed concerns about the consistency of LEOs’ responses to referrals.
           BDOs said that local LEOs did not consistently respond to referrals or engage
           referred passengers. TSA data show that LEOs did not respond to approximately
           2 percent of the referrals between October 2011 and September 2012.9
           Additionally, TSA data indicate that LEOs did not question approximately
           13 percent of referred passengers during that same period.

   9
     This information is based on PMIS data, which may be incomplete and inaccurate because of errors
   identified.


www.oig.dhs.gov                                        9                                                OIG-13-91
                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           Of the 15 airports we contacted, 3 had locally developed LEO outreach activities.
           At the airports using outreach activities, BDOs and LEOs reported more
           consistent and effective working relationships. The success of the program may
           be affected if BDOs and LEOs do not collaborate effectively.

           Financial Accountability

           The SPOT program’s financial plan does not include priorities, goals, objectives,
           or financial performance measures. According to the SPOT program office, the
           program was allocated more than $1 billion between FYs 2007 and 2012. The
           data provided by TSA indicate that the program expended an estimated
           $878 million for the program office and SPOT personnel. OMB Circular A-11
           describes budget formulation, development, and execution requirements that
           include needs analysis and budget development, budget execution, and
           expenditures tracking. Budget control is an integral part of an entity’s planning,
           implementing, reviewing, and accountability for stewardship of government
           resources and achieving effective results.10 Because the SPOT program did not
           have a financial plan that included priorities, goals, objectives, or measures, TSA
           cannot (1) show that SPOT was cost-effective, (2) identify opportunities for
           improvement, or (3) justify the program’s expansion.

           Prior to FY 2012, the SPOT program office did not fully determine priorities for
           future spending or develop an itemized forecast of future funding and
           expenditures. Performance information was not used to assess the effectiveness
           of program activities to develop budget priorities. According to program
           officials, the program's historical funding was the basis for spending estimates.
           Beginning in FY 2012, the Behavior Detection and Analysis Division developed
           spend plans that identified project funding requirements. According to the
           FY 2013 draft spend plan, the objective of the spend process is to collect,
           identify, and document funding requirements for the budget year with a 5-year
           forecast. However, the spend plans did not include a comprehensive accounting
           of SPOT funding requirements, such as BDO costs and training.

           Resources

           BDOs at 12 airports contacted were used for activities not associated with their
           primary behavior detection duties. For example, nine airports have used BDOs
           as periodic travel document checkers to review passenger boarding passes and
           identification at screening checkpoints. The SPOT Standard Operating Procedure

   10
    U.S. General Accounting Office, GAO/AIMD-00-21.3.1, Standards for Internal Control in the Federal
   Government, November 1999.


www.oig.dhs.gov                                      10                                            OIG-13-91
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           allows airports to divert BDOs to travel document checks during times of peak
           passenger traffic or other urgent circumstances. Additionally, one airport used
           BDOs to augment travel document checkers in order to identify passengers
           selected for additional screening. Airport officials explained that they used BDOs
           because Transportation Security Officer (TSO) travel document checkers were
           not identifying passengers who needed additional screening. SPOT program
           officials did not analyze airports’ use of BDOs for activities not associated with
           behavior detection duties to evaluate program performance and financial
           impact. By diverting BDOs from their behavior detection duties, TSA may be
           decreasing the effectiveness of a defined layer of security and are not using BDO
           staff as intended.

           BDO Selection, Allocation, and Performance

           The SPOT program needs to ensure that it has an effective process to identify
           and address challenges that may affect the success of the program.

           TSA senior airport officials at airports contacted raised concerns regarding
           selection, allocation, and performance of BDOs. These issues may directly affect
           the success of the SPOT program. Additionally, TSOs are the only source of
           candidates for BDO positions. Limiting BDO recruitment may not provide the
           program with the highest-quality candidates.

           TSA officials at the airports contacted said that they did not understand how
           BDOs are allocated to airports. Federal Security Directors at the airports
           contacted were unsure whether resources were allocated to airports solely
           based on the number of passengers boarding planes; or if airport layout, queuing
           design, and scheduling constraints were also considered. Without a clear
           understanding of allocation methods and the opportunity to provide input on
           BDO allocation, TSA officials at airports may find resources limited to the point
           where the expected benefits of this security layer may not be realized.

           TSA does not use an evaluation period to determine whether new BDOs can
           effectively perform behavior detection and analysis duties. TSA also does not
           have a process to move BDOs back to their TSO positions without penalty. This
           may result in a workforce with some BDOs not able to perform their duties
           effectively.

           Conclusion

           Strategic planning is the keystone to a successful program. Because OMB
           Circular A-11 guidance identifies requirements for agency strategic planning, it


www.oig.dhs.gov                                11                                      OIG-13-91
                                  OFFICE OF INSPECTOR GENERAL
                                      Department of Homeland Security


            would be prudent for agency programs to follow these same principles to help
            ensure program success and contribute to the agency’s mission. Without the
            implementation of a SPOT strategic plan that contains key elements, TSA cannot
            ensure that passengers at U.S. airports are screened in an objective manner,
            show that the program is cost-effective, or reasonably justify the program’s
            expansion to ensure that threats to aviation security are effectively prevented.11

            Recommendations

            We recommend that the Assistant Administrator, Office of Security Capabilities:

            Recommendation #1:

            Develop and implement a comprehensive strategic plan for the SPOT program
            that includes—

                     Mission, goals, objectives, and a system to measure performance;
                     A training strategy that addresses the goals and objectives of the SPOT
                     program;
                     A plan to identify external partners integral to program success, such as
                     law enforcement agencies, and take steps to ensure that effective
                     relationships are established; and
                     A financial plan that includes identification of priorities, goals, objectives,
                     and measures; needs analysis; budget formulation and execution; and
                     expenditure tracking.

            Recommendation #2:

            Develop and implement controls to ensure completeness, accuracy,
            authorization, and validity of referral data entered into the Performance
            Measurement Information System.

            Recommendation #3:

            Develop and implement a plan that provides recurrent training to BDO
            instructors and BDOs.
   11
     The Government Performance and Results Act of 1993 requires agencies to develop a strategic plan for
   program activities that contains (1) a comprehensive mission statement, (2) general goals and objectives,
   (3) how goals and objectives are to be achieved, (4) how performance plan goals relate to the general
   goals and objectives in the strategic plan, (5) external factors that could significantly impact achievement
   of the general goals and objectives, and (6) a description of the program evaluations used in establishing
   or revising general goals and objectives, with a schedule for future program evaluations.


www.oig.dhs.gov                                         12                                              OIG-13-91
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #4:

           Develop and implement a plan to assess BDO instructor performance in required
           core competencies on a regular basis.

           Recommendation #5:

           Monitor and track the use of BDOs for non-SPOT related duties to ensure BDOs
           are used in a cost-effective manner and in accordance with the mission of the
           SPOT program.

           Recommendation #6:

           Develop and implement a process for identifying and addressing issues that may
           directly affect the success of the SPOT program such as the selection, allocation,
           and performance of BDOs.

           Management Comments and OIG Analysis

           TSA provided comments to this draft report and a copy of the response in its
           entirety is included in Appendix B. TSA also provided technical comments, which
           we incorporated as appropriate.

           According to its response to the draft report, TSA agreed with our
           recommendations for improvements to the SPOT program. Below are TSA’s
           responses to each recommendation and our analysis.

           TSA Response to Recommendation #1: TSA concurred with the recommendation;
           however, it disagreed with our assessment that it had not implemented a
           strategic plan to ensure the SPOT program’s success, or that it had not
           developed performance measures for the program.

           According to TSA’s response, it is in the process of updating its strategic plan to
           reflect the organization’s recent realignment. The strategic plan will elaborate
           on the Behavior Detection and Analysis Program’s efforts to work with external
           partners such as law enforcement. Additionally, TSA will execute a BDO training
           strategy elaborating on many of the efforts that are currently under way. Finally,
           the Behavior Detection and Analysis Program will continue to produce a yearly
           spend-plan that identifies goals, objectives, budget formulation and execution,
           and expenditure tracking.




www.oig.dhs.gov                                13                                      OIG-13-91
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           OIG Analysis: Our report recognizes that TSA had a draft strategic plan and
           performance metrics plan. However, these documents were not approved or
           fully implemented at the time of our review.

           TSA’s planned and current actions are consistent with the intent of the
           recommendation. This recommendation is resolved, but will remain open until
           TSA provides its updated strategic plan for our review and has demonstrated
           progress in implementing the plan.

           TSA Response to Recommendation #2: TSA concurred with the recommendation
           and said that in December 2012, it completed an audit of all SPOT referrals data
           entered into PMIS between March 2010 and August 2012. Additionally,
           mandatory guidance was provided to airports in order to correct technical and
           administrative errors. TSA officials stated that the entire audit and remediation
           process will be completed by July 2013.

           TSA has two information technology initiatives under way to enhance the
           accuracy and validity of SPOT data. The first initiative, which is scheduled to be
           implemented in May 2013, will include turning off the ability for SPOT referral
           reports to automatically bypass manager review after 72 hours. The second
           initiative creates a new SPOT database that will be more flexible, reduce data
           entry requirements, and have extensive analytical capabilities. The design and
           development phases for the new SPOT database will be completed over the next
           12 months.

           OIG Analysis: TSA’s planned and current actions are consistent with the intent
           of the recommendation. This recommendation is resolved, but will remain open
           until OIG—

                  Analyzes the results of the PMIS data audit;

                  Reviews the guidance provided to the airport in order to correct technical 

                  and administrative errors; and

                  Verifies progress with implementing the information technology initiatives. 


           TSA Response to Recommendation #3: TSA concurred with the recommendation. 

           According to TSA’s response, it has developed and implemented a plan to 

           provide recurrent training for BDO instructors and refresher training for the BDO 

           workforce. 


           OIG Analysis: TSA’s planned and current actions are consistent with the intent
           of the recommendation. This recommendation is resolved, but will remain open
           until TSA provides the training plan for the BDO and BDO instructors, and


www.oig.dhs.gov                                14                                      OIG-13-91
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           evidence of its implementation.

           TSA Response to Recommendation #4: TSA concurred with the recommendation.
           According to TSA’s response, it is going to update its National Training Team
           Guide for Instructors and Federal Security Directors in May 2013. The update
           will include a plan to regularly assess BDO instructor performance in core
           competencies.

           OIG Analysis: TSA’s planned and current actions are consistent with the intent
           of the recommendation. This recommendation is resolved, but will remain open
           until TSA provides the updated National Training Team Guide for Instructors and
           Federal Security Directors and evidence of its implementation.

           TSA Response to Recommendation #5: TSA concurred with the recommendation.
           According to TSA’s response, it is working on two major initiatives to monitor
           and track the use of BDOs to ensure that they are used in a cost-effective
           manner and in accordance with the mission of the SPOT program. TSA will begin
           a nationwide rollout of a BDO Efficiency and Accountability Metrics Database in
           May 2013.

           OIG Analysis: TSA’s planned and current actions are consistent with the intent
           of the recommendation. This recommendation is resolved, but will remain open
           until TSA provides evidence that the BDO Efficiency and Accountability Metrics
           Database and Program Compliance Assessment initiatives have been
           implemented.

           TSA Response to Recommendation #6: TSA concurred with the recommendation.
           According to TSA’s response, it has developed and implemented a number of
           processes for BDOs and BDO managers to provide feedback, suggestions, and
           concerns to the Behavior Detection and Analysis Program office. Within the next
           90 days, TSA plans to capture its communications processes in a BDO
           Communication Plan, which will include an annual survey.

           OIG Analysis: TSA’s planned and current actions are consistent with the intent
           of the recommendation. This recommendation is resolved, but will remain open
           until TSA provides its BDO Communications Plan and evidence of its
           implementation.




www.oig.dhs.gov                               15                                    OIG-13-91
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The audit objective was to determine whether TSA’s SPOT program is structured to
   ensure that passengers at U.S. airports are screened in an objective and cost-effective
   manner to identify potential terrorists. Our original audit objective was to determine
   the extent to which TSA's SPOT program was screening passengers at U.S. airports in an
   objective and cost-effective manner to identify potential terrorism and/or criminal
   activity. However, we could not determine the extent to which the SPOT program is
   operating in an objective and cost-effective manner because the program does not have
   the necessary structure in place to base our assessment.

   To accomplish this objective, we reviewed relevant laws, regulations, and appropriations.
   We also reviewed program policies, procedures, and other documentation, including
   versions of a draft SPOT strategic plan, Standard Operating Procedure guidance, and
   basic training curriculum. We attended the basic SPOT training course given to BDOs to
   gain an overall understanding of the fundamentals of behavior analysis and how it could
   be applied. Additionally, we reviewed other agency’s audit reports relevant to the SPOT
   program.

   According to OMB Circular No. A-11, Preparation, Submission, and Execution of the
   Budget, July 2010, an agency’s strategic plan is a valuable tool for communicating a
   vision for the future to managers, employees, delivery partners, suppliers, Congress, and
   the public. We analyzed whether the SPOT program office incorporated the
   characteristics of an effective strategic plan, including (1) a comprehensive mission
   statement, (2) general goals and objectives, (3) how goals and objectives are to be
   achieved, (4) how performance plan goals relate to the general goals and objectives in
   the strategic plan, (5) external factors that could significantly impact achievement of the
   general goals and objectives, and (6) a description of the program evaluations used in
   establishing or revising general goals and objectives, with a schedule for future program
   evaluations.

   We judgmentally selected 15 airports that use the SPOT program (see Table 2). We
   chose these airports by taking into account the following criteria:

           Number of referrals at each airport for the previous calendar year


www.oig.dhs.gov                                16                                      OIG-13-91
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


           Airport category
           Allocation of BDOs
           Ratios of BDOs, number of passengers boarding planes, and SPOT referrals
           Top 10 high-risk airports from DHS’s Current Airports Threat Assessment list
           Physical location (Northeast, Southwest, Central, Pacific Coast)

   We interviewed more than 300 officials at U.S. airports, TSA Headquarters, and external
   agencies. The airport interviews included Federal Security Directors, Assistant Federal
   Security Directors, BDO program coordinators, BDO managers, BDOs, SPOT instructors,
   coordination center personnel, and LEOs. Headquarters interviews included program
   office officials, training division personnel, privacy counsel, SPOT budget officials,
   database administrators, and allocation and scheduling personnel. In addition, we
   interviewed officials from DHS’ Science and Technology (S&T) Directorate, U.S. Customs
   and Border Protection, United States Secret Service, and TSA Federal Air Marshal
   Service. Interviews were also conducted with the Federal Bureau of Investigation and
   Israel’s El Al Airlines security.

   We obtained and analyzed the PMIS SPOT referral data for April 2009 through
   September 2012. We conducted analysis using IDEA Data Analysis Software to assess
   the accuracy and completeness of referral information collected. Because of insufficient
   internal controls over PMIS data, we did not rely on the data to form conclusions on
   performance of the SPOT program.

   We obtained and analyzed financial information received from the SPOT program office,
   including the pay, compensation, and benefit data it sourced from the National Finance
   Center. We did not test the expenditure data provided by the program office for
   completeness or accuracy, because financial data for the program from FYs 2007 to
   2012 was not readily available.

   This audit did not include work to determine the extent to which the SPOT program is
   based on valid scientific principles for use as an effective layer of aviation security in the
   United States. Additionally, on November 9, 2012, TSA announced that it ratified a
   collective bargaining agreement with the American Federation of Government
   Employees. The agreement will cover approximately 44,000 TSA employees and took
   effect on December 9, 2012. Since the audit was concluded in October 2012, the effect
   of the collective bargaining agreement on the SPOT program was not assessed.




www.oig.dhs.gov                                  17                                        OIG-13-91
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


   Table 2. Airport Sample Selection

                                                                                        Referrals from
                                                                          BDO
                         Airport                          Category                       Jan. 2011 to
                                                                       Allocation
                                                                                         April 201212
     Los Angeles International Airport,
                                                              X                                3,587
     Los Angeles, CA*
     San Francisco International Airport,
                                                              X                                398
     San Francisco, CA
     Orlando International Airport, Orlando, FL               X                                6,981
     Tampa International Airport, Tampa, FL                   I                                1,375
     Hartsfield-Jackson Atlanta International
                                                              X                                601
     Airport, Atlanta, GA
     Chicago Midway International Airport,
                                                              I                                440
     Chicago, IL
     Chicago O’Hare International Airport,
                                                              X                                730
     Chicago, IL*
     General Edward Lawrence Logan
                                                              X                                2,885
     International Airport, Boston, MA*
     Thurgood Marshall, Baltimore/ Washington
                                                              X                                769
     International Airport, Baltimore, MD*
     Detroit Metropolitan Wayne County
                                                              X                                1,251
     Airport, Detroit, MI*
     Kansas City International Airport,
                                                              I                                108
     Kansas City, MO
     John F. Kennedy International Airport,
                                                              X                                5,293
     New York, NY*
     La Guardia Airport, New York, NY                         X                                1,618
     William P. Hobby Airport, Houston, TX                    I                                 256
     George Bush Intercontinental/
                                                              X                                675
     Houston Airport, Houston, TX
   Source: OIG analysis of TSA data 

   *Six of the airports in our sample were on TSA’s 2010 list of top 10 high-risk airports.


   We conducted this performance audit between April and October 2012 pursuant to the
   Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.

   12
     This information is based on TSA’s PMIS, which may be incomplete and inaccurate because of errors
   identified.


www.oig.dhs.gov                                          18                                              OIG-13-91
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report

                                                                                          us. D. pnlrne ..1 o f Ilomcl ... d Sc.:urily
                                                                                          601 So~lh lJ lh SI,.,."
                                                                                          A,lm:lI011. VA 2U5'l1l:1


                                                                                          Transportation
                                                                                          Security
                        MAY - 32GB                                                        Administration
                                                          lNFORMA nON

                  MEMORANDUM FOR,                        Anne L. Richards
                                                         Assistant Inspector General
                                                         U.S. Department of Homeland Security (DHS)

                                                         John S. p;stolet
                                                         Administrator
                                                                               q/
                                                         Transportation,     mity Administration

                  SUBJECL                                Rt::Sponse to Dran Report. Transportation Security
                                                         Administration 's Screening of Passengers by Observation
                                                         Techniques (OIG 12-1-l1-AUD-TSAj



                  This memorandum constitutes the Transportation Security Administration's (TSA) response to
                  the DHS Office ufInspector General (DIG) draft report, Tramportalion Securily
                  Administration 's Screening of Passengers by Observation Te chniques, March. 2013.

                  Background

                  Congressman Bennie Thompsun requested an audit ofTSA 's Scn::ening of Passengers by
                  Observation Techniques (SPOT) program to determine its effectiveness, efficiency, and
                  economy as a security screening protocol at airports. The aud it objective was to determine
                  whether TSA's SPOT program is structured to ensure that passengers at U.S. airports are
                  screened in an objective and cost-effective manner to identify potential terrorists. OIG
                  conducted its audit from April to O ctober of 20 12. and interviewed more Than 300 officials at
                  U.S. airports, TSA headquarters, and external agencies.

                  DIG provided T SA with six recommendations fo r action, all of which TSA concurs with,
                  including implementing a strate gic plan. The DIG concluded that without the implementation of
                  a strategic plan that contains key elements, including mission, goal, and Objectives needed to
                  develop a system of perfomlance metrics, "TSA cannot ensure that passengers at U.S . airports
                  are screened in an objective manner, show that the program is cost-effective, or reasonably
                  justify the program's expansion to ensure that threats to aviation security are etlectively
                  prevented."

                  During the audit, TSA provided the OIG with a draft Behavior Detection and Analysis Strategic
                  Plan. which included a m ission statement, vision statement, goals, and objectives already under
                  development. TSA has s ince finalized this plan (finalized December 2, 2012). TSA also




www.oig.dhs.gov                                                 19                                                                       OIG-13-91
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



                                                                                                                    2


                  provided the OIG with a draft Perfonnance Me trics Plan (finalized November 20 12) which
                  establishes the architecture for val idated melrics to measure the SPOT program and Behavior
                  Detection Officer (BOO) perfonnancc. Finally, TSA provided the 010 with a draft return on
                  investment study (finalized December 20 12). and Program Spend Plans from fiscal years (FY)
                  20 11, 2012, and 20 13. Of note, TSA provided DIG with approved final documents on December
                  5, 2012. These reports detail project descript ions, justifications and impact if nol funded along
                  with a breakdown of Program Operat ions and Management costs.

                  These documents collectively provide the strategic and financial roadmap for the Behavior
                  Detection and Analysis Program (BDAP). Wh ile the OIO's report acknowledges the existence
                  and submi ssion of these draft plans, TSA would have liked the OIG to acknowledge that TSA
                  had begun preparing these documents prior to its audit. Additionally, TSA believes that it has
                  more fully implemented the plans than is described in OIG's report and that no significant
                  concerns remain unaddressed.

                  Discussion

                  Earl ier this year, consistent with TSA 's intelligence·drivcn and risk-based strategy, the TSA
                  Deputy Administrator approved the realignment of BOAP, excluding the research and
                  development function. from the Office of Security Capabilities (OSC) to the Office of Security
                  Operations (OSO). Placing the operational component of BOAP in OSO aligns behavior
                  detecti on and analysis with other real-time threat assessmen t operations.

                  The BOAP now has four functional areas: \) strategic planning and policy development; 2)
                  training and workforce engagement; 3) compliance and standardization ; and 4) analysis and
                  metrics. Working in tandem with OSC and the Office of Training and Workforce Engagement
                  (OTWE), BOAP focuses on five stratcgic areas:

                     1. Integrate Behavior Detection into Risk-Based Security Initiatives: Continue to
                        integrate the behavior detection capability into risk-based security. and study the impact
                        that behavior detection and analysis has on the overall effectiveness and effi ciency of the
                        transportation security system.
                     2. Develop Data Management Protocols and Robust Analytical Ca pabilities: Coliect,
                        organize, validate, and make data accessible to enable improved decision-making
                        regarding BOO allocation, pilots. procedures, and daily operations.
                     3. Implement Quality Assurance Oversight Measures: Implement a mu ltifaceted qual ity
                        assurance program for TSA behavior detection and analysis init iatives to ensure
                        consistent and standard practices, including airport operation evaluations, current
                        training/testing, and data entry/management.
                     4. Research, DeveJop9 and Validate New and Existing Beha,rior Analysis Capabilities:
                        Continue to build the scientific foundation for behavior detection and analysis while
                        refining current capabi lities. Leverage existing and emerging best practices used by other
                        domestic and international behavior detection programs as well as law enforcement,
                        defense, and intelligence agencies.
                     5. Execute Multifaceted Internal and E xternal Communications Plans: Work with
                        Federal. state, local and international law enforcement, and civi l rights groups to build
                        public support and leverage best practices. Engage with the TSA workforce to explain




www.oig.dhs.gov                                                 20                                                      OIG-13-91
                                                  OFFICE OF INSPECTOR GENERAL
                                                          Department of Homeland Security



                                                                                                                                                                   3

                             why behavior detection and ana1ysis is a critical layer to the transportation security
                             system .

                  This framt:work is consist!:nl with TSA's larger focus on risk-based security, workforce
                  engagement and organizational efficiency. and the OSO strategic plan for 2013-2015.

                  TSA had begun, and in some cases has completed, aU of the recommendations cited by tile 010
                  in this report:

                       •     Strat£gic Planning and Performance Measurement: TSA finalized a strategic plan
                             and performance measurement plan and began implementing many of the objectives in
                             these framework documents.
                       •     Data Accuracy: TSA implemented controls to ensure completeness, accuracy,
                             authorization. and validity of referral data entered into the Perfonnance Management
                             Information System.
                       •     Training: TSA implemented a plan to provide recurrent/refresher training to all BOOs
                             and BOO instmctors, and developed a plan to assess UDO instructor performance in
                             required core competencies on a regular basis.
                       •     Monitor and Evaluate BDO Attivity: TSA developed, and implemented an automated
                             tool to help evaluate airports' use of BOO resources.
                       •     Employee Engagement: TSA implemented processes for identifying and addressing
                             issues raised by the workforce that may directly affect the success of the SPOT program.

                  Conclusion

                  TSA believes that passengers at U.S. airports arc screened by BDOs in an objective manner;
                  SPOT is effective and has been validated and determined to identify substantially more high-risk
                  travelers than a random screening protocol ;land the program is executed in an eflicient manner.
                  TSA recognizes the important issucs set forth in this rcport. TSA apprcciates OlO ' s efforts to
                  identify areas needing improvement with the SPOT program and will continue to implement
                  ~IG's recommendations, if not already fully implemented.




                  > SPOT n:jcm>/      I'C,xm Va/idatir:" , $tudyfinDl rqKHf: VoillltW$/-<l. Washington. DC: American Institute.'! for Rcsc8fch. Cost>&an. T. E..
                  Mid:..",,"". 7.. f ., Tftyl or. T S . Sawyer. K , M)·ers. T L . &. Toplltz, M. (20] 1).




www.oig.dhs.gov                                                                          21                                                                            OIG-13-91
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                                             U.S. Department orRomeland Security
                                          Transportation Security Administration (TSA)

                                                  RespoDse to OIG Dran Report
                  Transportation Security Administration's Screening 0/ Passengers by Observation Techniques-
                  Sensitive Security In/ormation, March,2013.

                  Recommendation .1: Develop and implement a comprehensive strlltegic plan for the S POT
                  Program tbat incl udes J) mission, goab, objectives, and. system to measure performance;
                  2) a training slrategy tbat addresses tbe goals aod objectives of tbe SPOT programj (3) a
                  plan to identify external partners integral to program success, such as law enforcement
                  agencies, and take steps to ensure that effedive relationships are established; and (4) a
                  financial p lan that includes identification of priorities, goals, objectives, and measures;
                  needs DDalysis; budget formulation and execution ; and expenditure tracking.

                  TSA concurs. While TSA agrees with this recommendation. it disagrees with the statements in
                  the report that "TSA has not implemented a strategic plan to ensure the program 's success," nor
                  developed performance measures for the program. Although in drBft fonn until December 2012,
                  the Program operated under the strategic plan and began implementing many of the s trategic
                  objectives, including developing a performance metrics plnn and continuing to analyze the
                  effectiveness of behavior detection and analysis.

                  Consistent with Office of Manngeme.nt and Budget (OMB) Cin:u1ar A-1I , the SPOT Strategic
                  Plan defines its mission, goals, objectives, and actions that the Program win take to realize goals
                  and monitor progress. In fact, in November 20 12, the Program publi shed and immediately began
                  implementing the Behavior Detection and Analysis Division Performance Metrics Plan outlining
                  the Progrwn's approach to developing a comprehensive system for effectively measuring SPOT
                  performance. Specifically, the perfonnance metrics plan identifies current gaps in perfomlance
                  metrics collection., initiatives to address metrics gaps. and resource requirements for the next 3
                  year.;. The plan includes a set of performance metrics that allow for continuous performance
                  tracking and evaluation, including:

                     •   Perfonnance measures for selecting. hiring. and training BOOs;
                     •   Perfonnance measures for evaluating individual BOO performance and effectiveness;
                         and
                     •   Perfonnance metrics for evaluating program effectiveness as a whole. including which
                         behaviors lead to a high probability of a BOO encountering and detecting high-risk
                         passengers.

                  The Program is in the process ofupdatillg the strategic plan to refl ect the organization's recent
                  realignment. The Plan will elaborate on the Program's efforts to work with external partners
                  such as law enforcement, which the TSA already does on a consistent basis. Additional ly, TSA
                  will execute a BOO training strategy elaborating on many of the efforts that are currently
                  underway. Finally. the Program will continue to produce a yearly spend-plan that identifies
                  goals, objecti,,'es. budget formu lation and execution, and expenditure tracking. In swn. all of the




www.oig.dhs.gov                                                  22                                                      OIG-13-91
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security



                                                                                                                        2

                  components of a comprehensive strategic plan are in place with efforts underway to acrueve full
                  implementation.

                  TSA fmalized a strategic plan and perfonnance measurement plan and began implementing
                  many of the objecti ves in these framework documents. Therefore. TSA requests that OIG
                  consider this recommendation implemented and closed.

                  Recommendation 2: Develop and implemcot controls to ensure completeness, accuracy,
                  autborization, and validity of referral data entered into the Performance Measurement
                  InformatioD System.

                  TSA concurs. The Perfonnance Measurement lnfonnation System (PMIS) records SPOT
                  operational data. The system captures infannation including arrests and the surrender of
                  prohibited items. The Program has taken measures to ensure the completeness, accuracy. and
                  validity of SPOT data already submitted into PMIS and developed further contn>ls within the
                  system to prevent future errors.

                  In December 2012, the Program completed a data audit of all SPOT referrals enten::d into PMIS
                  between March 2010 and August 2012. The Program provided mandatory guidance that airports
                  correct tectullcal and adminiSlrBtive errors by amending the PMIS records through a comparison
                  with the hard copy referral sheets that are maintained locally. Corrections are documented in
                  spreadsheets noting that the PMIS record was changed, when appropriate, or that there was a
                  reason why the report was filled out with those fields and thus did not constitute an error. The
                  entire audit and remediation process  wm   be final ized by May 2013, for all but five airports, the
                  last of which will be completed by July 2013. The Program will continue large-scale data audits
                  to ensure the validity and accuracy of SPOT referral data. Additional ly. the Program created a
                  report for SPOT Transportation Security Managers (STSM) giving them the abi lity to locally
                  monitor and correct errors on a regular basis.

                  The Program also has two significant Infonnation Technology initiatives underway to enhance
                  tbeaccuracy and validity of SPOT data. The first initiative, to be implemented in the beginning
                  of May 2013, modifies the current SPOT module, including turning oHthe 72-hour auto-
                  promote function and adding drop down menus and check boxes to capture SPOT referral data.
                  It also includes additional required fields and business rules 10 ensure more accurate and
                  complete reporting. This initiative will facilitate data integrity in the field and ensure that all
                  entries into PMIS have been reviewed and approved by an STSM for quality assurance. aDOs
                  and STSMs were trained on this new form the week or April 22-26, 2013, via Adobe Connect
                  sessions, conferences calls, and guidance documents provided on the STSM iShare site.

                  The second initiative creates a new SPOT database that will be morc flexible, reduce data entry
                  requirements to the fuJicst extent possible, and have extensive anaJyticaJ capabilities, including
                  better trend analysis of indicators resulting in detection ofa high risk passenger (system
                  requirement phase completed March 2013; design and development phases will be completed
                  ovcrthe next 12 months).




www.oig.dhs.gov                                                  23                                                         OIG-13-91
                                              OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security



                                                                                                                       3

                  These system modifications provide the necessary controls to ensure com pleteness, accuracy.
                  proper authorization. and validity of the referTlll data entered into the PM IS system. Therefore,
                  TSA requests that OIG consider this recommendation implemented and closed.

                  Recommendation 3: Develop and implement a plan that provides recurrent tuining to
                  DDO instrudon and BDOs.

                  TSA coneun. TSA has developed and implemented a plan to provide recurrent training for
                  BOO instructors and refresher training for the 800 workforce. At the same time, TSA has
                  added o.ddilionaJ Online Leaming Center (OLC) requirements specificaHy foc BOOs.

                  RDO Instructors: All National Training Team (NTr) instructors. including those currently
                  assigned to the NlT. wiU altend an academy where they will be t8Ught and evaJuated on leaching
                  techniques. Specifically. they will receive the Office of Law Enforcement/Federal Air Marshal
                  Service Instructor Development Course. They will also receive training on the technicaJ content
                  ofcowses that the NIT teaches including BOO SPOT Basic Training and BOO Refresher
                  Training. They are further required to complete Train-the-Trniner (T3) training for the courses
                  they will be teaching. Graduates of the NIT Academy deploy as members of the NTf for a 6-
                  month period during which they shadow qualified instructors and undergo a mentoring process.
                  At any point in the process, instructors failing to meet standards are removed from the qualified
                  list of those who can instruct BOO courses. The Office or Training and Workforce Engagement
                  (OTWE) and BOAP will collabomte on providing instructors with recurrent training andlor
                  guidance if curriculum content changes .

                  8DOs: Refresher Training is integral to an effeclive training program because work conditions
                  and policies change over time. Additional or updated training ensures that the program' s
                  mission continues to be accomplished effectively. ~uring calendar year (CY) 2011, 232 BOOs
                  attended 12 Refresher Training classes; while in 2012, 481 SOOs attended 24 Refresher Training
                  classes. SOAP has realigned NTT resources for calendar year 2013 to ensure that aU e ligible
                  BDOsl com plete Refresher Training by the end of Decembcr 2013 . To that end, from February
                  11 through March 9. 2013, NIT members conducted 12 refresher elasses for 388 BOOs from 10
                  airports. In April 2013, an additional 177 BOOs will be trained during 8 refresher classes. Thus,
                  by the end of April 2013, 1,278 of the approximately 2,020 eligible BOOs will have received
                  refresher training. Planning is ongoing to conduct an additional 30 refresher classcs during the
                  remainder orey 2013 to provide training to all eligible BOOs who have not yet received
                  refresher training. TSA recognizes that ongoing training on a frequent basis is criticw to
                  maintaining and enhancing skills learned during BOO SPOT Basic Training. Each year, the
                  Program Office will provide a gap analysis to OTWE identifying perfonnance factors and. future
                  objectives whieh OTWE will use 10 update the prior yeM's Refresher Training. The Program
                  will frequently provide the updated t:raining ensuring that BOOs maintain essential skiUs.

                  Additionally, to assist local airports, in January 2013, 80AP launched a series of training
                  scenarios for STSMs. These scenarios help STSMs engage with their employees, assist BOOs in
                  reviewing critical procedures, and apply critieal thinking as a leam. Further, OTWE will add
                  five new OLC courses to the BOO learning plan during calendar year20 13, and will update two

                  !   BOOs are elicibie to receive Refresher Training after 4 months.




www.oig.dhs.gov                                                            24                                              OIG-13-91
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



                                                                                                                    4


                  current OLe courses. These OLe courses focus on criticaJ skills in the areas of report writing,
                  property searches, Walk the Line procedures, and Causal Conversation techniques. OTWE has
                  also begun updating the SPOT Basic and SPOT Refresher Training courses, incorporating
                  Standard Operating Procedure (SOP) updates, enhanced instructor notes and instructor best
                  practices with an estimated completion date no later than August 2013.

                  The completed and planned refresher training for BOO instructors and BOOs is comprehensive.
                  11lerefore. TSA requests that DIG consider this recommendation implemented and closed.

                  Reco mmendation 4: Develop and implement a pla n to DaJeSS BOO instructor p erforma Dce
                  in required core compe.eocl('!1 on a regular basis.

                  TSA concurs. On April 2, 2009, the BDAP published        B National   Training Team (NTf) Guide
                  for Instructors and Federal Security Directors (FSD), This training guide provided day-to-day
                  operational guidance for members of the NlT. Since this guide did not address the certification
                  and recertification ofinslructors, the Program will issue a new version in May 2013. It will
                  include a plan to regularly assess BOO instructor perfonnWlce in core competencies. The May
                  2013 Handbook will provide the following guidelines:

                     •    All instructors will be evaluated annually in accordance with OTWE's Quality Assurance
                          (QA) and Compliance Program OSO-OIT/QACP-SOP-0512012 and must receive a QA
                          evaluation with a "Meets Expectations" or bener rating. The QA assessment will be
                          conducted during delivery of approved technical training courses in the program area in
                          which the instructor is qualified to teach. If a QA evaluation rating below "Meets
                          Expectations" is received, remediation and re-evaluation will be required . Instructors
                          will be allowed a total of three anempls to achieve the "Meets Expectations" rating level.
                          The third failure will result in the de-certification of the instructor and removal from the
                          NIT. This is consistent with other TSA instruction programs and evaluation processes.

                     •    Every quarter, all instructors assigned to the NTI will be provided feedback on their
                          instructional skil ls. For classroom instructors, the feedback will align with the
                          Transportation Officer Perfonnancc System for BOOs. During a BOO Basic Training
                          mission, the designated Team Lead will complete a DHS Employee Perfonnance Plan
                          and Appraisal Form (EPPA) for BOOs for each instructor assigned to the mission. The
                          Team Lead will provide feedback to the instructors along with a signed copy of the
                          EPPA. The Team Lead will then provide a copy or the EPPA to BDAP. which BDAP
                          will in turn provide to the instructor' s Airport of Record (AOR).

                      •   For Team Leads, the feedback will align with the Lead's Employee Perfonnance
                          Management Progrnm (EPMP). STSMs assigned to the NTI shall provide the BOAP
                          with a copy of their current EPMP fonn. For the quarterly feedback. 8 representative of
                          the BDAP will observe the STSM during an NTT mission and, using appropriate
                          competencies from the EPMP. provide feedback to the STSM along with a signed copy
                          of the EPMP. The EPMP wiU also be provided to the STSM's AOR These processes
                          are consistent with how employees are evaluated when they are part of TSA National
                          Deployment Force.




www.oig.dhs.gov                                                  25                                                      OIG-13-91
                                       OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security



                                                                                                                5



                  TSA has developed and implemented a plan to assess BOO instructor performance. Therefore,
                  TSA requests that OIG consider this recommendation implemented and closed.

                  Recommendation S: Monitol'" Ilnd track the use of nOD~S POT related duties to tAIUN:
                  BDOs are used in • cost-effective manner and in accordance with the mission of the SPOT
                  program.

                  TSA concurs. The Program is working on two major initiatives aimed at monitoring and
                  tracking the use of BOOs to ensure that they are used in a cost-effective manner and in
                  accordance with the mission of the SPOT program. These initiatives take into account that FSDs
                  must retain the discretion 10 employ BDOs to meet a specific security threat or need. The
                  initiatives are as foUows:

                  BDO Efficiency and Accountability Merrks (BEAM) Dalabase: BEAM provides airport
                  management and TSA with a standll1dized tool to track and analyze BOO daily operational data,
                  including BOO locations and time spent performing duties. The system streamlines the current
                  methods of collecting this data. which varies by each airport. More accurate and complete data
                  will allow for increased standardization of the program and improved analysis of the use of the
                  behavior detection capability at airports nationwide. In October 2012, TSA began evaluating the
                  tool at select airpOrts refining the system requirements. In May 2013, the Program begins a
                  nationwide rollout of BEAM, which will include further pilots. incorporation ofupdatesllessons
                  learned. and procedures mandating airports' use of the system.

                  BEAM data will be closely monitored by BDAP providing information that was previously not
                  readily available on use of BDOs. Using data from BEAM. TSA will analyze how to deploy
                  BOO assets as part of the larger TSA security system. including, but not limited to, whether
                  BOO deployment is maximized for operational effectiveness during peak travel times. Through
                  8ll8lySls, the Program will gain insight to how BOOs are being regularly utilized, specifically
                  how often they are performing duties outside of the scope of SPOT duties. The Program will
                  work with other parts ofOSO to conduct a cost-benefit analysis on whether these duties provide
                  a meaningful addition to TSA' s security system and are best carried out by a BOO. The Program
                  will regularly report findings to FSDs, Regional Directors (RD), and other OSO leadership, as
                  appropriate and needed .

                  Program Compliance Assessment Vuhs : ]n 2012, BDAP created the Program Compliance
                  Assessment (PCA) team to assess compliance with the SPOT SOP through observation and
                  participation in each airport's operation. In addition to SOP compliance, PeAs identify how
                  airports are using BOOs via site visits and then validate these observations through BEAM.

                  In light of this comprehensive monitoring and tracking plan through BEAM and PCA visits,
                  TSA requests that OIG consider this recommendation implemented and closed.

                  Recommendation 6: Develop and implc m~Dt a proccss for idcntifying aDd addressing
                  issues that may directly affect the success of the SPOT program such ai, tbe sclection,
                  allocation and performance of BOOs.




www.oig.dhs.gov                                               26                                                    OIG-13-91
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security



                                                                                                                     6


                  TSA CODeUn. TSA has developed and implemented the following processes for BOOs and
                  STSMs to provide feedback, suggestions and concems to SOAP:

                     •   TSA IdeaFaciory: On April2S, 2007, TSA launched the JdeaFactory, a Web-based tool
                         that gives more than 50,000 field and headquarters personnel , including BOOs, a voice to
                         communicate improvement ideas. IdeaFactory empowers TSA employees to develop.
                         promote, and improve innovative ideas for programs, processes, and technologies without
                         being mtered through the entire TSA community. Pwticipants submit ideas, provide
                         comments on how to improve new concepts, and endorse ideas, which they believe.
                         should be recommended for implementation.

                     •   BDO Discussion Board Blog: All SODs have access to the SPOT iShare site, which
                         includes a discussion board or Blog where they can provide ideas and thoughts.

                     •   Hi-Weekly Best Practices Conference Calls: In November 2012, SOAP began bi-
                         weekly conference calls with airports providing them with an opportunity to exchange
                         best practices, raise concerns, and reinforce key programmatic procedures and policies.

                     •   SPOT M a ilbox: BOAP operates an email box for all BOOs to ask questions, make
                         observations or solicit clW'ificlltion on policies and procedures. The email box provides
                         BOOs and STSM with an avenue to clarify policy, recommend new initiatives, and
                         acknowledge BOOs' work.. The Program aims 10 respond to each email within one week
                         and also provides a weekly summtU')' of all policy and procedures questions Md answers
                         to all STSMs. This information is shared with employees through airport Shift Briefs.

                     •   Best Practices iSbare Site: In January 2013, TSA launched a Best Practices iShare site,
                         which builds upon the success of the biweekly best practices conference calls. At
                         airports nationwide, FSDs, SPOT Coordinators" Managers, and BOOs have put
    I!                   innovation to work by creating tools that improve their operations. The goal of this site is
                         to tum local good ideas into national best practices.

                     •   Bi-Weekly Sbift Brief: BOAP provides a Shift BrieflO STSMs highlighting BOO work,
                         including incidents that demonstrate adherence to proper procedures and effective
                         outcomes, including, but not limited to, law enforcement intervention. 1be Brief also
                         discusses new initiatives and provides exercises and talking points for Managers on
                         critical topics.

                     •   Weekly F requently Alked Qu estioru: Frequently Asked Questions are sent out to
                         BOO Managers each week via the distribution list summW'izing procedural questions
                         posed to BDAP over the previous week.

                     •   WeekJy Dashboa rd : A weekly dashboard is provided to FSDs and field leadership,
                         which captures operational metrics from the previous week and includes updates on
                         programmatic initiatives.




www.oig.dhs.gov                                                 27                                                       OIG-13-91
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security



                                                                                                                        7

                     •   M onthly Pmg.-a m Calls: Monthly calls are conducted to provide FSDs, SPOT
                         Coordinators. and STSMs with updates and notification of upcoming init iatives and
                         changes.

                     •   PCA Visits: PCA methodology will serve as a process for identifying and addressing
                         issues that may directly affect the success of the SPOT program. Under the PCA
                         Program. peA Teams comprised ofhigh ~ perfonning. speciatly·l'mincd BOOs will
                         observe and assess SPOT operations at airport.!! on an annual basis, with the goal of
                         promoting the consistent application of SPOT policies and procedures. The PCA
                         Assessments will produce obj octive, quantitative data that will facilitate the analysis.,
                         identification. and tracking of operational issues and deficiencies that may require further
                         exploration and, potentiaUy, corrective action. Following peA visits.. a irports wilJ
                         receive a structured report that analyzes tbe results oflhe PCA Team 's observations and
                         identifies any required remediation plans. Additionally. these reports will be available to
                         RDs, OSO Division Directors. the 080 Assistant Administrator and others. as necessary.
                         The peAs will a.Jso serve as 80 additionaJ mechanism for BOOs and STSMs to provide
                         the BOAP feedback and obtain guidance on SPOT policies and procedures. In the future,
                         BOAP anticipates that airports wiU self-assess using the PCA criteria which will not only
                         standardize and improve the quality of self-evaluations, but also further enhance BDAP' s
                         and. airports' ability to identify issues that may affect the success of the SPOT program.

                  These e fforts and others, including adding an annual BDO survey will be captured in a BOO
                  Communication Plan to be completed within the next 90 days. As pan ofTSA's process of
                  u.fXIating its strategic plan for the SPOT program. TSA wilt review c urrent selection, allocation,
                  and perfonnance criteria to delennine if changes are warranted.




www.oig.dhs.gov                                                 28                                                          OIG-13-91
                                              OFFICE OF INSPECTOR GENERAL
                                                   Department of Homeland Security


   Appendix C
   SPOT Referral Process
                                                                                                               LEO referral
     Establish environmental baseline                                                                     Complete incident report
                                                                                                          Complete referral report
                                                                                                        Complete TISS database entry



        Assess behavior cues and
           appearance factors




          Perform Walk the Line             See Note 1




            Immediate LEO               Yes
                                                                                                                 Notify LEO
          notification required?



                                                                                                                       Yes
                      No                           See Note 2




          Is individual exhibiting    Yes                       Yes                                          Does the individual
                                                                       Select the individual for SPOT
              SPOT behaviors                                                                                 meet the criteria for
                                                                             referral screening
            entering screening                                                                                LEO notification?
                 process?


                       No

                                                         No                                                             No
                                                                             SPOT referral
        Allow individual to proceed
                                                                          Complete referral report




   Source: TSA

   Note 1: BDOs initiate brief verbal exchanges with passengers waiting in line, while observing passengers’ 

   behaviors. 

   Note 2: The SPOT program assigns point values to specific passenger behaviors and appearances. 

   Passengers exhibiting behaviors that exceed the SPOT numerical threshold 
                are referred for
   SPOT referral screening. The SPOT referral screening includes a search of the passenger, the passenger’s
   personal property, and a review of the passenger’s identification and travel documents.




www.oig.dhs.gov                                                   29                                                            OIG-13-91
                                     OFFICE OF INSPECTOR GENERAL 

                                         Department of Homeland Security


Appendix D
SPOT Situational Report (SitRep) Dashboard – All Airports




Source: TSA
Note: The information reported in TSA’s Dashboard may be inaccurate and incomplete because of errors identified in
the PMIS data.




   www.oig.dhs.gov                                       30                                            OIG-13-91
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


   Appendix E

   GAO Status of SPOT Recommendations (as of 4/10/2013)

   (Source: http://www.gao.gov/products/GAO-10-763, GAO official website)

   Efforts Validate TSA's Passenger Screening Behavior Detection Program Underway, but
   Opportunities Exist to Strengthen Validation and Address Operational Challenges,
   GAO-10-763, May 20, 2010

   Recommendation: To help ensure that SPOT is based on valid scientific principles that
   can be effectively applied in an airport environment, the Secretary of Homeland Security
   should convene an independent panel of experts to review the methodology of the DHS
   Science and Technology (S&T) Directorate study on the SPOT program to determine
   whether the study's methodology is sufficiently comprehensive to validate the SPOT
   program. This assessment should include appropriate input from other federal agencies
   with expertise in behavior detection and relevant subject matter experts. Status:
   Closed – Implemented

   Recommendation: If research determines that the SPOT program has a scientifically
   validated basis for using behavior detection for counterterrorism purposes in the airport
   environment, then the TSA Administrator should conduct a comprehensive risk
   assessment to include threat, vulnerability, and consequence of airports nationwide to
   determine the effective deployment of SPOT if TSA's ongoing Aviation Modal Risk
   Assessment lacks this information. Status: Open

   Recommendation: If research determines that the SPOT program has a scientifically
   validated basis for using behavior detection for counterterrorism purposes in the airport
   environment, then the TSA Administrator should perform a cost-benefit analysis of the
   SPOT program, including a comparison of the SPOT program with other security
   screening programs, such as random screening, or already existing security measures.
   Status: Open

   Recommendation: If research determines that the SPOT program has a scientifically
   validated basis for using behavior detection for counterterrorism purposes in the airport
   environment, then the TSA Administrator should revise and implement the SPOT
   strategic plan by incorporating risk assessment information, identifying cost and
   resources, linking it to other related TSA strategic documents, describing how SPOT is
   integrated and implemented with TSA's other layers of aviation security, and providing
   guidance on how to effectively link the roles, responsibilities, and capabilities of federal,
   state, and local officials providing program support. Status: Open




www.oig.dhs.gov                                    31                                    OIG-13-91
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Recommendation: If research determines that the SPOT program has a scientifically
   validated basis for using behavior detection for counterterrorism purposes in the airport
   environment, then the TSA Administrator should study the feasibility of using airport
   checkpoint-surveillance video recordings of individuals transiting checkpoints who were
   later charged with or pleaded guilty to terrorism-related offenses to enhance
   understanding of terrorist behaviors in the airport checkpoint environment. Status:
   Closed – Implemented

   Recommendation: Concurrent with the DHS S&T Directorate study of SPOT, and an
   independent panel assessment of the soundness of the methodology of the S&T study,
   to ensure the program's effective implementation, and to provide additional assurance
   that TSA utilizes available resources to support the goals of deterring, detecting, and
   preventing security threats to the aviation system, the TSA Administrator should provide
   guidance in the SPOT Standard Operating Procedures or other TSA directive to Behavior
   Detection Officers (BDOs), or other TSA personnel, on inputting data into the
   Transportation Information Sharing System and set milestones and a time frame for
   deploying Transportation Information Sharing System access to SPOT airports so that
   TSA and intelligence community entities have information from all SPOT Law
   Enforcement Officer (LEO) referrals readily available to assist in "connecting the dots"
   and identifying potential terror plots. Status: Closed – Implemented

   Recommendation: Concurrent with the DHS S&T Directorate study of SPOT, and an
   independent panel assessment of the soundness of the methodology of the S&T study,
   to ensure the program's effective implementation, and to provide additional assurance
   that TSA utilizes available resources to support the goals of deterring, detecting, and
   preventing security threats to the aviation system, the TSA Administrator should
   implement the steps called for in the TSA Office of Security Operations Business plan to
   develop a standardized process for allowing BDOs or other designated airport officials to
   send information to TSA's Transportation Security Operations Center about passengers
   whose behavior indicates that they may pose a threat to security, and provide guidance
   on how designated TSA officials are to receive information back from the
   Transportation Security Operations Center. Status: Closed – Implemented

   Recommendation: Concurrent with the DHS S&T Directorate study of SPOT, and an
   independent panel assessment of the soundness of the methodology of the S&T study,
   to ensure the program's effective implementation, and to provide additional assurance
   that TSA utilizes available resources to support the goals of deterring, detecting, and
   preventing security threats to the aviation system, the TSA Administrator should direct
   the TSA Transportation Security Operations Center to utilize all of the law enforcement
   and intelligence databases available to it when running passenger names, for
   passengers who have risen to the level of a LEO referral. Status: Closed – Implemented



www.oig.dhs.gov                               32                                      OIG-13-91
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Recommendation: Concurrent with the DHS S&T Directorate study of SPOT, and an
   independent panel assessment of the soundness of the methodology of the S&T study,
   to ensure the program's effective implementation, and to better measure the
   effectiveness of the program and evaluate the performance of BDOs, the TSA
   Administrator should establish a plan that includes objectives, milestones, and time
   frames to develop outcome-oriented performance measures to help refine the current
   methods used by Behavior Detection Officers for identifying individuals who may pose a
   risk to the aviation system. Status: Closed – Implemented

   Recommendation: Concurrent with the DHS S&T Directorate study of SPOT, and an
   independent panel assessment of the soundness of the methodology of the S&T study,
   to ensure the program's effective implementation, and to better measure the
   effectiveness of the program and evaluate the performance of BDOs, the TSA
   Administrator should establish controls to help ensure completeness, accuracy,
   authorization, and validity of data collected during SPOT screening. Status: Closed –
   Implemented

   Recommendation: Concurrent with the DHS S&T Directorate study of SPOT, and an
   independent panel assessment of the soundness of the methodology of the S&T study,
   to ensure the program's effective implementation, and to help ensure that TSA provides
   BDOs with the knowledge and skills needed to perform their duties, the TSA
   Administrator should establish time frames and milestones for its plan to systematically
   conduct evaluations of the SPOT training program on a periodic basis. Status: Closed –
   Implemented




www.oig.dhs.gov                               33                                     OIG-13-91
                    OFFICE OF INSPECTOR GENERAL
                       Department of Homeland Security


   Appendix F
   Training Task Analysis for SPOT Program – Executive Summary




www.oig.dhs.gov                    34                       OIG-13-91
                                                  OFFICE OF INSPECTOR GENERAL
                                                          Department of Homeland Security



                                                                      SENSITIVESECURlTY INFORMATION

                  Training Task Analysis for Ihe Screening of Passengers hy O bservalion Techniques (SPOT)

                  1. Executive Summary
                  Following the results of the previously submitted Job Task Analysis (ITA) and Difficulty, Importance,
                  and Frequency (DIF) Analysis, the current sequel to the Transportation Security Administration 's (TSA)
                  Screening of Passengers by Observation Technique (SPO]) Program ' s effort at improving and upcL'lting
                  the current training of Behavior Detection Officers (800) has included expert insights of national trainers
                  and Subject Maller Experts (SwlE) during two workshops that took place in FebnJary and March, 2011.
                  The SMEs were involved in the functional and hi erarchi cal analyses of the JTA tasks as pan of an overall
                  task validati on effort .

                  The results of the validation process and hierarchical and functional analyses a) identified the trainable
                  tasks from the original 11 0 ITA tasks, bringing the total to 63 trainable tasks; b) grouped the trainable
                  tasks into five categori es; and c) identifi ed a sali ent group of communicati on tasks with three
                  subcategori es of communi cation types, depending on the pUl1)Ose and target of communication.

                  With the results of the vari ous analyses thai collected direct input from nati onal SPOT SMEs and TSA
                  national trainers, the need for a maj or overhaul of the enti re SPOT Program training is evi dent. It is
                  necessary to ensure that the training is current and relevant to emerging threats, both in tenns of its
                  content as well as in terms of context; that is, the focus of the training delivery system should be shifted to
                  exchange, interaction, and facilitation modes rather than the lecture-based foumbtional infonnation.

                  Since May 20 11 , TSA has rolled out an interim training program that addresses some of the deficiencies
                  of its prior training program. As a result, all tasks currently ha ve some degree of coverage in the training
                  materials, which is a signifi cant improvement over the previous version. From the 63 tasks, 37 (59%) of
                  the tasks were not covered in training matclial s pri or to the rol1-out of the Interim Basic Training.

                  The following calculation of the combinations of behavior, stress, and deception fa ctors illustrates the
                  complexity of the BOO's observation tasks. The officers are trained to look for behavioral cl usters . By the
                  time BOOs make a decision to call a Law Enforcement Officer (LEO), they may encounter any of 63,32 1
                  possibl e combinations offactors, yielding the thres hold value of~ prior to making any
                  decision, a BDO may encounter l SI combinations offactors that~and 94 1 combinati ons of
                  factors yielding          The            which calls for SPOT RefelTal but does not involve an LEO
                  notification, can be any of 19,079 combinations of fa ctors.

                  Newly identifi ed tasks and groups of tasks have emerged as a res ult of the Job Task Analysis and
                  subsequent reviews during the current Training Task Analysis (TT A) effort. In addition, a new subset of
                  tasks has been identified that fa ll s under the umbrella of communication tasks and comprises 33 tasks
                  (52%). That subset is not addressed in the current training as a separate group of communicati on tasks.
                  Within just the past year, the SPOT program has undergone dynami c changes. In spite of this, th e
                  program needs to be fUl1her refined and aligned with the findin gs, as di scussed in Seclion 6.




                  WARNING: This record cCN1\ains Sensitive Security inf(KlT1aliOll that is controlled under 49 CfR parts 15 and 1520. No part of this record may
                  be disclosrd to ptrsons without a ·'need 10 know'·. as ddined in 49 CF R part s 15 and 1520. excc"t wilh the written permissiCN1 of the
                  Aoininistnl1or of th e Transportation Security A~niniSl.rntion. Of the SecrcllllY ofTransportatiCN1. Unauthorized rel ease may result in civil penalty
                  or other action. For U.S. Government agencies. public disclosure is governed by 5 U.S.C. 552 and4!> CFR parts 15 and t520 .                       Page   Page 5




www.oig.dhs.gov                                                                          35                                                                                OIG-13-91
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix G
   Major Contributors to This Report
   Donald Bumgardner, Director
   Robert Greene, Audit Manager
   Edwin Soto, Auditor-in-Charge
   Jacque Bear, Program Analyst
   Priscilla Cast, Program Analyst
   Melissa Estrella, Program Analyst
   Tia Jackson, Program Analyst
   Kevin Dolloson, Communications Analyst
   Katrina Bynes, Independent Referencer




www.oig.dhs.gov                             36                  OIG-13-91
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix H
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Transportation Security Administration

   Administrator
   Transportation Security Administration Audit Liaison

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Honorable Bennie G. Thompson, House Committee on Homeland Security
   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  37                        OIG-13-91
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
